        October 30, 2002




   Financial Management

   Naval Ammunition Logistics Center
   Financial Reporting of Ammunition
   and Other Ordnance Assets in
   Operating Materials and Supplies
   for FY 2002
   (D-2003-017)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAIMS                 Conventional Ammunition Integrated Management System
FFMR                  Federal Financial Management Requirements
FMR                   Financial Management Regulation
JAMSS                 Joint Ammunition Management Standard System
MMR                   Materiel Management Regulation
NALC                  Naval Ammunition Logistics Center
OM&S                  Operating Materials and Supplies
USD(C/CFO)            Under Secretary of Defense (Comptroller/Chief Financial Officer)
          Office of the Inspector General of the Department of Defense
Report No. D-2003-017                                                   October 30, 2002
   Project No. D2001FJ –0179.001

        Naval Ammunition Logistics Center Financial Reporting of
          Ammunition and Other Ordnance Assets in Operating
                 Materials and Supplies for FY 2002

                                   Executive Summary

Who Should Read This Report and Why? DoD civilians and military financial
management personnel who use or are involved in the preparation of financial reports
required by the Chief Financial Officers Act should read this report because it provides
information concerning the financial reporting of ammunition and ordnance assets.

Background. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-
356, the “Federal Financial Management Act of 1994, ” October 13, 1994. This report is
the second in a series resulting from our audit of the Financial Reporting of Operating
Materials and Supplies (OM&S). The first report discussed the Naval Air System
Command’s financial reporting of non-ordnance OM&S. This report discusses the Navy
effort to improve financial reporting of the conventional ordnance portion of its OM&S
and to improve its ordnance information management system. The Navy’s principal
system for reporting ordnance information is the Conventional Ammunition Integrated
Management System (CAIMS). CAIMS has been operational since the early 1970s.

Results. The Naval Ammunition Logistics Center was not capturing the data needed to
accurately report conventional ordnance in the financial statements, and was not properly
presenting and valuing conventional ordnance that is Held for Repair. As a result, the
Navy’s accuracy in reporting more than $35.6 billion of conventional ordnance for
FY 2002 will not be measurable, and the Navy will not be in compliance with Federal
accounting standards (finding A). If the Assistant Secretary of the Navy (Financial
Management and Comptroller) would require the Naval Ammunition Logistics Center to
comply with the Financial Management Regulation and use historical cost data for
financial reporting and if the Commander, Naval Ammunition Logistics Center,
establishes system interfaces with the Navy weapon system program offices these
deficiencies will be corrected and accuracy of Navy financial reporting should improve.

The Naval Ammunition Logistics Center made substantial improvements to the capability
and functionality of CAIMS during the past 2 years. However, the Navy did not plan to
fix the financial reporting problems in CAIMS for at least 2 more years despite the
relatively small cost of the changes needed. As a result, the annual financial reporting of
ordnance will continue to be inaccurate and CAIMS will remain non-compliant with
financial reporting requirements until FY 2004 or later (finding B). The Assistant
Secretary of the Navy (Financial Management and Comptroller) should take steps to fix
the reporting problems as soon as possible to provide a more accurate representation of
Naval ordnance in the annual financial statements.

Management Comments. The Principal Deputy Assistant Secretary of the Navy
(Financial Management and Comptroller), in coordination with the Commander, Naval
Supply Systems Command and the Commander, Naval Ammunition Logistics Center
concurred with the findings and recommendations. She stated that the Navy would defer
taking immediate corrective action because of the open status of the Financial
Management Enterprise Architecture effort and the pending Under Secretary of Defense
(Comptroller)/Chief Financial Officer policy governing inventory and related materials.
She indicated that the Navy will align its efforts with those DoD-wide initiatives in
addressing the recommendations and correcting the weaknesses noted in the report.




                                           ii
Table of Contents

Executive Summary                               i


Background                                     1


Objectives                                     1


Findings
     A. Financial Reporting of Navy Ordnance    3
     B. Navy Ordnance Reporting System          9

Appendixes
     A. Scope and Methodology                  14
         Management Control Program Review     14
         Prior Coverage                        15
     B. Report Distribution                    16

Management Comments
             Department of the Navy            19
Background
    Introduction. The audit was performed in support of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994, ”
    October 13, 1994.

    This report is the second in a series resulting from our audit of the financial
    reporting of operating material and supplies (OM&S). The first report discussed
    the Naval Air System Command’s financial reporting of non-ordnance OM&S.
    This report addresses Navy efforts to improve the financial reporting of its
    conventional ordnance portion of OM&S and its conventional ordnance
    information system.

    Ordnance inventory is a Chief of Naval Operations special interest item, and the
    General Accounting Office considers control over inventory a high-risk area.
    Improved financial management, especially linking operational and financial
    systems to produce accurate and timely information, is one of President Bush’s
    recently emphasized management initiatives.

    Location and Composition of Navy Ordnance. The Department of the Navy
    conventional ordnance inventory is distributed among approximately 1,300
    commands, activities, and storage facilities within the United States, as well as
    overseas and on board ships.

    The inventory is made up of all expendable elements of Navy weapons, including
    precision guided missiles, torpedoes, mines and depth charges, small arms,
    bombs, rockets, and sonobuoys.

    The Naval Ammunition Logistics Center (NALC), which is located in
    Mechanicsburg, Pennsylvania, is responsible for tracking the movement, location,
    and condition of the ordnance stockpile.
    Information Management System. Since the early 1970s, the NALC has used
    the Conventional Ammunition Integrated Management System (CAIMS) to
    monitor the amount and location of conventional ordnance. CAIMS was designed
    to provide the Navy the ability to manage its ordnance from the time an asset was
    received from a contractor until it was expended.

    CAIMS is the single repository for data on worldwide status of Navy
    conventional ordnance requirements, assets on-hand, production, expenditures,
    costs, and technical inventory management data. Also, the ordnance information
    in CAIMS is used for Navy financial reporting.

Objectives
    The overall objective of the audit was to evaluate management assertions
    pertaining to valuation, completeness, and existence of DoD OM&S accounts and


                                         1
to determine whether these accounts are presented fairly on the financial
statements in accordance with Office of Management and Budget requirements.
We focused this part of the audit on Navy actions needed to improve FY 2002 and
future year financial reporting of its ordnance portion of OM&S. We also
assessed management controls related to the audit objective. See appendix A for a
discussion of the scope, methodology, and management control program review.




                                    2
            A. Financial Reporting of Navy
               Ordnance
            The NALC had not taken action to accurately capture and report historical
            cost data of ordnance assets for inclusion in the Navy’s financial
            statements. In addition, conventional ordnance Held for Repair values
            were reported inaccurately. The NALC cited the following reasons for not
            taking action to appropriately value ordnance:

            •   a perceived conflict between the Financial Management Regulation
                and the Materiel Management Regulation and

            •   inadequate repair cost information because of the lack of interface
                between reporting systems.

            Unless significant changes are made, Navy accuracy in reporting more
            than $35.6 billion of conventional ordnance for FY 2002 will not be
            measurable, and the Navy will not be in compliance with Federal
            accounting standards.

Financial Reporting Policy
     Financial reporting policy requires ordnance values to be included in the OM&S
     amounts reported on the Balance Sheet of the financial statements. The following
     policies guide the collection, presentation, and valuation of that information.

     Federal Financial Policy. Statement of Federal Financial Accounting Standard
     Number 3, “Accounting for Inventory and Related Property,” October 1993,
     outlines the Federal financial reporting standards for inventory and related
     property.
        •   Paragraph 36 defines OM&S as tangible personal property to be consumed
            in normal operations. OM&S is considered “free issue” to the end-user
            whereas inventory is “sold” to the end-user. OM&S does not include
            (1) goods that have been acquired for use in constructing real property or
            in assembling equipment to be used by the entity, (2) stockpile materials,
            (3) goods held under price stabilization programs, (4) foreclosed property,
            (5) seized and forfeited property, and (6) inventory.

        •   Paragraph 37 specifies that OM&S is to be reported in one of three
            categories—Held For Use; Held in Reserve for Future Use; and Excess,
            Unserviceable, and Obsolete.

        •   Paragraph 42 requires that OM&S be valued on the basis of historical cost.




                                         3
        •   Paragraph 43 directs that historical cost shall include all appropriate
            purchase and production costs incurred to bring the items to their current
            condition and location.

        •   Paragraph 44 notes that Federal entities can value OM&S using any
            number of valuation methods if the results reasonably approximate
            historical costs.

     DoD Financial Policy. The Financial Management Regulation (FMR), DoD
     7000.14-R, outlines the policy, regulation, and procedures that all DoD
     Components must follow.

     The FMR, volume 4 “Accounting Policy and Procedures,” chapter 4, “Operating
     Materials and Supplies,” August 2000, implements and follows the standards
     outlined in the Statement of Federal Financial Accounting Standard No. 3.
     Chapter 4, paragraph 040107 requires OM&S to be valued at historical cost,
     which shall include all appropriate purchase and production costs incurred to
     bring the items to their current condition and location. Also, OM&S is to be
     reported in one of three categories—Held for Use; Held in Reserve for Future
     Use; and Excess, Obsolete, and Unserviceable.

     DoD consolidated the OM&S Held for Use and the OM&S Held in Reserve for
     Future Use reporting categories into a single OM&S Held for Use reporting
     category for the FY 2001 financial statements. DoD also reported its OM&S that
     is Held for Repair as a separate line item for the first time in the FY 2001
     financial statements.

Valuation of Ordnance in Financial Statements
     The NALC provides data to the Assistant Secretary of the Navy (Financial
     Management and Comptroller) on the ordnance values to be incorporated into the
     financial statements. However, NALC was using latest acquisition cost to value
     its ordnance data and did not plan to change. NALC personnel told us that NALC
     did not plan to provide the data on the historical cost of ordnance for inclusion in
     the financial statements even though it plans on adding a field to CAIMS to
     capture those data (see finding B).

     NALC personnel said they believed that there was a conflict between the FMR
     and the Materiel Management Regulation (MMR) regarding the valuation of
     ordnance. As such, NALC planned to continue providing data to the Navy using
     the latest acquisition cost instead of the historical cost of ordnance until the
     perceived conflict is resolved.

     Comparison of the Regulations. The FMR requires that OM&S assets be
     valued on the basis of historical cost for financial statement purposes. The MMR,
     chapter 4, “Asset Management,” May 1998, paragraph C4.7.1.2, requires
     inventory to be valued using the latest acquisition cost method.

     The MMR addresses cost data for DoD Supply System Inventory Reports that
     provide summary statistics on the status of DoD supply system inventories.


                                          4
    Although latest acquisition cost data is preferred for DoD supply or logistics
    management purposes, historical cost data is required for financial reporting
    purposes.

    Discussions with Under Secretary of Defense for Acquisition, Technology,
    and Logistics and the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer. Although NALC officials believed that there was a conflict
    between the FMR and the MMR on the proper valuation of ordnance; authorities
    who made those policies did not support that position. We discussed the
    perceived conflict in the regulations with senior management in the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics and the
    Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    (USD[C/CFO]) and determined that there was no conflict in the guidance.

Ordnance Held For Repair
    In addition to not capturing the historic cost of serviceable ordnance for financial
    reporting, the NALC will not properly present or value conventional ordnance
    that is Held for Repair in FY 2002 and future year financial reports.

    Presentation and Valuation. The Navy, in footnotes to the FY 2001 financial
    statements, disclosed that 45 percent ($15.3 billion) of Held for Use ordnance was
    actually classified as unserviceable but repairable. We asked NALC personnel
    why the unserviceable ordnance assets were not being presented as Held for
    Repair in the Navy financial statements. NALC personnel indicated that the
    primary reason was that the maintenance repair cost data needed to properly value
    Held for Repair ordnance were not readily available. Repair cost data are needed
    because the proper value of an unserviceable ordnance asset is derived by
    reducing the cost of the asset by the cost needed to bring the asset to a fully
    serviceable condition.

    Repair Cost Data. NALC personnel advised us that maintenance repair cost data
    are not currently available in the Navy ordnance management system, CAIMS.
    Generally, data on the cost of a repair are maintained in information systems that
    are owned and operated by Navy weapon system program offices. Therefore, for
    CAIMS to appropriately value unserviceable ordnance, it must interface with
    those systems and capture the appropriate data from them.

    NALC can only properly report its unserviceable ordnance as Held for Repair and
    appropriately value its unserviceable ordnance if it has the repair cost data
    available from those feeder systems.

    To comply with Federal and DoD financial reporting requirements, the Navy
    needs to build an interface between CAIMS and the Navy weapons systems
    containing the repair cost data. However, prior to starting the interface efforts




                                          5
     NALC needs to obtain approval and agreement from the USD(C/CFO) and the
     Assistant Secretary of the Navy (Financial Management and Comptroller).
     Specifically, NALC needs to obtain approval for necessary system changes and to
     obtain agreement on the methodology that will be used to properly value ordnance
     Held For Repair.

Effect on Financial Reports
     To adequately report its ordnance information in the financial statements, the
     Navy must:

        •   comply with the FMR and report the historical costs of its ordnance and
        •   present and properly value ordnance Held for Repair.

     Until these issues are addressed, Navy FY 2002 financial reporting of
     approximately $35.6 billion of ordnance assets will not be in compliance with
     Federal and DoD financial reporting requirements.

Recommendations and Management Comments
     A.1. We recommend that the Assistant Secretary of the Navy (Financial
     Management and Comptroller) require the Naval Ammunition Logistics
     Center to comply with the Financial Management Regulation and use
     historic cost data for financial statement reporting.

     Assistant Secretary of the Navy (Financial Management and Comptroller)
     Comments. The Navy concurred with the recommendation. The Navy stated
     that the programming costs needed to make CAIMS compliant appear to be
     minimal, however, programming CAIMS without a plan to convert inventory and
     related materials (IRM) to historic costs cannot ensure financial auditability. The
     Navy noted that the USD(C/CFO) contracted with a consulting firm to develop a
     plan to convert existing IRM values to a historical-based methodology. The Navy
     stated that the USD(C/CFO) is in the process of formulating implementation
     guidance, policies, and procedures, and when issued, the Navy would coordinate
     with the Naval Supply Systems Command and the Naval Ammunition Logistics
     Center to comply with the requirements.

     A.2. We recommend that the Commander, Naval Ammunition Logistics
     Center work with the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer and Assistant Secretary of the Navy (Financial
     Management and Comptroller) to establish a plan for developing system
     interfaces between the Navy ordnance reporting system and systems used by
     Navy weapon system program offices so that needed repair cost data can be
     accessed for the proper valuation of ordnance that is Held for Repair.




                                          6
Assistant Secretary of the Navy (Financial Management and Comptroller)
Comments. The Navy concurred with the recommendation. The Navy stated
that it is working with the USD(C/CFO) to achieve the objectives of the DoD
Financial Management Enterprise Architecture and when completed, the
architecture will provide the plan for system interface design, and the Navy will
implement it at that time. The Navy noted that there is no DoD-wide method for
valuing IRM Held for Repair, and a consulting firm is developing a DoD-wide
approach for valuing IRM Held for Repair. The Navy stated that when a DoD-
wide methodology is promulgated, the system data requirements will be known
and can be considered during the USD(C/CFO) overall system interface plan.




                                    7
           B. Navy Ordnance Reporting System
           The NALC substantially improved the capability and functionality of its
           ordnance information system during the past two years. However, NALC
           did not plan to fix the financial reporting capability deficiencies of
           CAIMS for at least two more years despite the relatively small cost of
           changes needed. The NALC decided not to request the estimated
           $300,000 needed to correct identified financial compliance deficiencies in
           CAIMS until FY 2004. NALC believed that additional functional
           improvements were more important than the financial compliance issues.
           As a result, the annual financial reporting of ordnance will continue to be
           inaccurate and CAIMS will remain non-compliant with financial reporting
           requirements until FY 2004 or later.

Navy Ordnance System
    CAIMS was designed in the early 1970s to provide the Navy the ability to
    manage its ordnance from the time an asset was received from a contractor until it
    was expended.

    Standard Ordnance System. In the early 1990s, DoD began a concerted effort
    to standardize its logistical systems, including the Military Departments’ ordnance
    information management systems. Initially, DoD chose CAIMS as the best
    ammunition system among the Military Departments. The DoD attempted to
    redesign CAIMS for use as the joint standard ammunition system. However,
    because CAIMS had a mainframe database structure with little flexibility, DoD
    believed that incorporating the system throughout DoD would be difficult.
    In 1996, DoD decided to develop a new standard DoD-wide system, the Joint
    Ammunition Management Standard System (JAMSS). However, the JAMSS
    program encountered development problems and, in March 2000, DoD suspended
    work on the system and began considering other alternatives for development of a
    standard system. The alternatives considered were all new systems rather than
    adaptation of an existing operational system to satisfy the requirement.
    Termination of JAMSS. The Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) eventually officially terminated the
    effort to develop JAMSS as the standard DoD-wide ordnance system. At that
    point, improvements were still needed in the existing ordnance information
    systems to ensure those systems could capture adequate management information
    for each of the Military Departments. To achieve this purpose, the Deputy Under
    Secretary of Defense (Logistics) decided to allow each of the Military
    Departments to independently improve their own unique systems for the
    management and financial reporting of ordnance. To improve the systems, the
    funds originally budgeted for JAMSS were divided among the Military
    Departments. The Navy received $3.4 million in FY 2002 and is expecting to get
    an additional $16 million over the next 5 years.

    System Improvements. While awaiting development of a standard DoD-wide
    system, NALC continued to improve CAIMS and spent $7.9 million on CAIMS


                                         9
    improvements over a period of 3 years. NALC personnel indicated the
    improvements gave the system more flexibility and utility. The improvements
    included changing the system from a mainframe database structure to an open
    system or relational environment. The improvements were designed to lower the
    annual maintenance costs of the system and to provide any potential CAIMS user
    with greater capability and functionality. The NALC planned additional
    improvements to CAIMS in the future. Specifically, NALC planned to transform
    CAIMS to a much-improved management system that would permit ordnance
    managers access through a central web entry point.

Federal Financial Management System Requirements
    Despite extensive modifications to improve capability and functionality, CAIMS
    continued to lack key components needed to satisfy Federal financial system
    reporting requirements.

    Federal Financial Compliance Review. NALC personnel recognized the
    financial reporting deficiencies in the system. To determine specifically which
    functions should be changed to make CAIMS compliant, the Navy contracted
    with KPMG Consulting to review CAIMS for compliance with Federal reporting
    requirements.

    KPMG used a DoD publication, “Guide to Federal Requirements for Financial
    Management Systems,” to make the assessment. The publication lists financial
    management system requirements for accounting and finance systems. The
    Federal Financial Management Requirements (FFMRs) listed in the guide are
    derived from various Federal laws and regulations relevant to financial reporting.

    KPMG reviewed 84 FFMRs that they determined were applicable to CAIMS.
    KPMG reported that CAIMS was compliant with 75 FFMRs and non-compliant
    with the remaining nine.
           1. capability to value ordnance at historical cost

           2. capability to use historical costs that may be derived using either first-
              in, first-out, weighted average, or moving average

           3. capability to value excess, obsolete, and unserviceable ordnance at net
              realizable value

           4. capability to record the loss or gain between purchase price and net
              realizable value

           5. audit trails to source documents

           6. integration with acquisition and core financial systems

           7. capability to provide financial information in appropriate formats




                                        10
           8. capability to send information to core financial and cost accounting
              systems

           9. capability to perform integrity checks on batches received

    The results of the KPMG review were provided to NALC in September 2001.
    However, no action was taken.

    Defense Financial Management Modernization Program—System Initiatives.
    The Secretary of Defense established a new Financial Management
    Modernization Program to provide policy direction and oversight for all
    management modernization efforts. To implement the program, the
    USD(C/CFO) provided guidance on October 12, 2001, for all DoD Components
    concerning on-going and new system initiatives.
    The USD(C/CFO) stated that although prudent investments in operational,
    developmental, and new system initiatives are important to maintain and improve
    the Department’s business operations, the overall impact on the Department’s
    pending financial management enterprise architecture must first be assessed.
    Therefore, any system changes needed to satisfy a financial compliance
    requirement alone may not be funded or implemented without prior written
    approval of the USD(C/CFO).

    This policy prevented the Navy from improving CAIMS without written
    approval. However, if the Navy wanted to make CAIMS compliant with the
    Federal reporting requirements, the Navy could seek written approval. At the
    time of audit, despite the relatively low cost of the needed changes, NALC had
    not requested approval.

Actions Needed for System Compliance
    NALC Actions. Based on the results of the system compliance review, NALC
    estimated that it would require approximately $300,000 to correct the identified
    financial reporting deficiencies. The projected cost was based primarily on the
    number of programming hours needed to make the required system changes. The
    Chief Information Officer at NALC told us that it would take about 2 and
    1/2 months to make the necessary changes.

    We asked the Deputy Director of NALC Operations why the financial
    requirement system changes were not made earlier. He stated that all available
    funding, including the reprogrammed funds from the JAMSS program
    ($3.4 million for FY 2002), was designated to be used for additional functionality
    improvements in CAIMS and not programmed for improving the financial
    reporting functions of the system.

    Additionally, the Deputy Director stated that ongoing initiatives to improve the
    CAIMS functions needed to be completed in order to maintain the level of
    services NALC provides, because staffing had been reduced. Also, he believed
    that the functionality improvements took priority over compliance with Federal
    financial requirements. The Deputy Director added that NALC did plan to make


                                        11
    the system compliant by using $300,000 of the funds budgeted for FY 2004 to
    correct the reported deficiencies.

    Navy Department Actions. In addition to the funding issue, NALC personnel
    advised us that they could correct only seven of the nine identified financial
    compliance issues. The integration with acquisition and core financial systems,
    and the sending of information to core financial systems and cost accounting
    systems cannot be corrected without input from many other Navy Department
    activities. However, NALC had not taken action to identify, in conjunction with
    the other Navy activities, those core systems with which CAIMS must interface
    before it can be fully compliant with Federal financial management system
    requirements.

Conclusion
    The Navy’s primary ordnance system, CAIMS, will not be able to capture and
    record the data that are needed for financial reporting of ordnance until FY 2004
    or later. As a result, the Navy’s financial reporting of ordnance for FYs 2002 and
    2003 will continue to be inaccurate.

    We believe the Navy needs to pursue additional actions. The Navy should initiate
    efforts to fix the CAIMS financial reporting deficiencies by seeking a waiver from
    the USD(C/CFO) restrictions on modification of systems. We also believe the
    Navy should allocate funds in FY 2002 to make financial compliance
    improvements.

Recommendations and Management Comments
    B.1. We recommend the Assistant Secretary of the Navy (Financial
    Management and Comptroller) request a waiver from the Under Secretary
    of Defense (Comptroller)/Chief Financial Officer restrictions on systems
    improvements to permit reprogramming of funds to correct the
    Conventional Ammunition Integrated Management System financial
    compliance deficiencies.

    Assistant Secretary of the Navy (Financial Management and Comptroller)
    Comments. The Navy concurred with the recommendation. The Navy noted that
    the USD(C/CFO) contracted with a consulting firm to devise a strategy that will
    ensure proper valuation of IRM and the USD (C/CFO) is developing policies and
    procedures resulting from the consulting firm’s study. The Navy stated that the
    new policy would enable DoD Components to implement a uniform methodology
    for valuing IRM Held for Repair and Excess, Obsolete, and Unserviceable IRM.
    The Navy asserted that when USD(C/CFO) promulgates the policies and
    procedures for valuation it will be coordinated with NAVSUP and the NALC.
    The Navy stated that, if necessary, it would request a waiver from USD(C/CFO)
    to make systems improvements to correct the deficiencies (with respect to
    valuation).




                                        12
B.2. We recommend the Assistant Secretary of the Navy (Financial
Management and Comptroller) provide the funds needed to make the
Conventional Ammunition Integrated Management System compliant with
Federal financial management requirements in FY 2002.

Assistant Secretary of the Navy (Financial Management and Comptroller)
Comments. The Navy concurred with the recommendation. The Navy stated
that its compliance is predicated on USD(C/CFO) developing methodologies for
valuing IRM and conversion of baseline IRM amount to historical cost. The
Navy stated that when USD(C/CFO) promulgates the necessary methodologies
and policies it would coordinate with NAVSUP and the NALC to ensure that the
necessary funding is made available to correct the compliance deficiencies and
implement USD(C/CFO) policies and procedures for valuation.
B.3. We recommend the Assistant Secretary of the Navy (Financial
Management and Comptroller), in conjunction with the Naval Ammunition
Logistics Center, identify and develop the interface between the core systems
and the Conventional Ammunition Integrated Management Systems.

Assistant Secretary of the Navy (Financial Management and Comptroller)
Comments. The Navy concurred with the recommendation. The Navy stated
that a completed DoD Financial Management Enterprise Architecture would
provide the plan for interfacing feeder systems with the core systems.




                                  13
Appendix A. Scope and Methodology
    We audited information related to the Navy financial reporting of ordnance assets.
    We examined financial information related to $35.6 billion of Navy conventional
    ammunition, which was on record at the beginning of FY 2002. We also
    reviewed the Navy’s plans to improve its ordnance information system and the
    financial reporting of ordnance. Additionally, we reviewed reports produced by
    KPMG Consulting.

    We also made inquires of personnel from the Offices of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, Assistant Secretary of the Navy
    (Financial Management and Comptroller), and NALC to determine the processes
    and policies that the Navy used to report OM&S. We included tests of
    management controls considered necessary.

    We performed this audit from August 2001 through April 2002 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    CAIMS to determine the value of the beginning of FY 2002 ordnance balances.
    Although we did not perform a formal reliability assessment of the computer
    processed data, we did not find errors that would preclude use of computer-
    processed data to meet the audit objectives or that would change the conclusions
    in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the financial management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of Navy management controls over OM&S. Specifically, we reviewed
    the Navy self-evaluation of control over the collection and reporting of
    information on the amount of ammunition and other ordnance assets reported in
    OM&S.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Navy as identified in DoD Instruction 5010.40. Navy
    management controls were not adequate to ensure that the Navy complied with
    the Financial Management Regulation to correctly capture, report, and value its
    ordnance at historical cost on its financial statements. All recommendations in


                                        14
    the report, if implemented, will correct the weaknesses. A copy of the report will
    be provided to senior officials within the Navy responsible for management
    control.

    Adequacy of Management’s Self Evaluation. Management’s self-evaluation
    was not adequate. The Navy identified compliance with CFO Act requirements
    as an assessable unit; however, they did not specifically report the material
    management control weaknesses identified during the audit.

Prior Coverage
    The General Accounting Office, the Inspector General of the Department of
    Defense, and the Naval Audit Service have conducted multiple reviews related to
    Navy financial statement issues. General Accounting Office reports may be
    accessed on the Internet at http://www.gao.gov. Inspector General of the
    Department of Defense reports may be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports may be
    accessed on the Internet at http://www.hq.navy.mil/NavalAudit.




                                        15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics, Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Ammunition Logistics Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont.)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Department of the Navy
Comments




                     19
20
21
22
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul Granetto
Richard Bird
James Kornides
John Issel
Eric Thacker
Melanie Schmeckel
Peter Bliley
